No. 20-54

IN THE

Oupreme Court of tbe tin tteb btatto
BRIDGE AINA LEA, LLC,
Petitioner,
v.
STATE OF HAWAII LAND USE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,987 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 25, 2020.

Colin Casey H igan
Wilson-Epes Printing Co., Inc.

